<html>
<title> - CRIMINAL JUSTICE REINVESTMENT ACT OF 2009, AND THE HONEST OPPORTUNITY PROBATION WITH ENFORCEMENT (HOPE) INITIATIVE ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
 CRIMINAL JUSTICE REINVESTMENT ACT OF 2009, AND THE HONEST OPPORTUNITY 
        PROBATION WITH ENFORCEMENT (HOPE) INITIATIVE ACT OF 2009

=======================================================================


                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                        H.R. 4080 and H.R. 4055

                               __________

                              MAY 11, 2010

                               __________

                           Serial No. 111-114

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
56-393                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               STEVE KING, Iowa
HENRY C. ``HANK'' JOHNSON, Jr.,      TRENT FRANKS, Arizona
  Georgia                            LOUIE GOHMERT, Texas
PEDRO PIERLUISI, Puerto Rico         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               TED POE, Texas
JUDY CHU, California                 JASON CHAFFETZ, Utah
TED DEUTCH, Florida                  TOM ROONEY, Florida
LUIS V. GUTIERREZ, Illinois          GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DANIEL MAFFEI, New York
JARED POLIS, Colorado

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

PEDRO PIERLUISI, Puerto Rico         LOUIE GOHMERT, Texas
JERROLD NADLER, New York             TED POE, Texas
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               TOM ROONEY, Florida
ANTHONY D. WEINER, New York
MIKE QUIGLEY, Illinois
[Vacant]

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              MAY 11, 2010

                                                                   Page

                               THE BILLS

H.R. 4080, the ``Criminal Justice Reinvestment Act of 2009''.....     5
H.R. 4055, the ``Honest Opportunity Probation with Enforcement 
  (HOPE) Initiative Act of 2009''................................    19

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and Member, Subcommittee on Crime, Terrorism, 
  and Homeland Security..........................................    29

                               WITNESSES

The Honorable Adam B. Schiff, a Representative in Congress from 
  the State of California
  Oral Testimony.................................................    31
  Prepared Statement.............................................    34
Mr. Adam Gelb, Director, Public Safety Performance Project, Pew 
  Center on the States, Washington, DC
  Oral Testimony.................................................    38
  Prepared Statement.............................................    41
The Honorable John T. Broderick, Jr., Chief Justice of the New 
  Hampshire Supreme Court, Concord, NH
  Oral Testimony.................................................    45
  Prepared Statement.............................................    47
The Honorable Jerry Madden, Texas House of Representatives, 
  Plano, TX
  Oral Testimony.................................................    52
  Prepared Statement.............................................    56
Nancy G. La Vigne, Ph.D., Director, Justice Policy Center, The 
  Urban Institute, Washington, DC
  Oral Testimony.................................................    62
  Prepared Statement.............................................    64
The Honorable Steven S. Alm, Judge, Second Division, Circuit 
  Court of the First Judicial Circuit, Honolulu, HI
  Oral Testimony.................................................    69
  Prepared Statement.............................................    72

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by Adam Gelb, Director, Public Safety 
  Performance Project, Pew Center on the States, Washington, DC..    88
Material submitted by the Honorable Robert C. ``Bobby'' Scott, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................    92

                                APPENDIX

Material Submitted for the Hearing Record........................    99


 CRIMINAL JUSTICE REINVESTMENT ACT OF 2009, AND THE HONEST OPPORTUNITY 
        PROBATION WITH ENFORCEMENT (HOPE) INITIATIVE ACT OF 2009

                              ----------                              


                         TUESDAY, MAY 11, 2010

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 4 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Quigley, and Poe.
    Staff Present: (Majority) Bobby Vassar, Subcommittee Chief 
Counsel; Liliana Coronado, (Fellow) Federal Public Defender 
Office Detailee; Ron LeGrand, Counsel; Veronica Eligan, 
Professional Staff Member; (Minority) Caroline Lynch, Counsel; 
Travis Norton, Counsel; and Kelsey Whitlock, Staff Assistant.
    Mr. Scott. The Subcommittee will come to order.
    And I welcome you to today's Crime subcommittee hearing on 
H.R. 4080, the ``Criminal Justice Reinvestment Act of 2009,'' 
and H.R. 4055, the ``Honest Opportunity with Probation, or 
HOPE, Initiative Act of 2009.''
    Both of these bills have been introduced by the gentleman 
from California, Mr. Schiff, and represent a bipartisan effort 
to address the corrections crisis that is plaguing our country.
    Over the last 20 years, State spending on corrections has 
increased exponentially, and the projections are that it will 
only continue to grow. The same is true with the prison 
population in this country. While State spending on 
incarceration rates have dramatically increased over the last 
two decades, recidivism remains high. Of the approximately 
700,000 individuals released from prison in 2008, it is 
estimated that half will be reincarcerated within 3 years, and 
even more will be arrested. This is unacceptably high.
    And the high recidivism rate among jail populations is also 
a problem. For example, of the 12 million admissions between 
July 1, 2004, and June 30, 2005, 71 percent had been 
incarcerated twice in 12 months. States and localities cannot 
continue to proceed with business as usual, as business as 
usual is not working for either budgets or for public safety.
    We are going to show one of the charts right now. This is a 
chart of incarceration rates, just to give people an idea of 
where we are in incarceration. The incarceration rates are 
about 50 to 200 per 100,000. This chart, the blue is the United 
States leading the world, rivaled only by Russia. Russia is 
about 600-and-some per 100,000; the United States over 700 per 
100,000.
    The next chart shows the African American incarceration 
rate at 2,200. The large bar is the top 10 States lock up 
African Americans at the rate of about 4,000 per 100,000.
    The United States rates, and particularly the African 
American incarceration rates, are particularly egregious when 
you look at the fact that the Pew Center research has estimated 
that anything over 500 per 100,000 is actually 
counterproductive.
    Many States have recognized the waste in money. A gentleman 
from North Carolina, Mel Watt, a Member of this Committee, 
informed me that North Carolina was looking at ways of reducing 
the prison population by investing in prevention and early 
intervention programs. I talked to my secretary of public 
safety in Virginia today, and they are also making those 
investments in prevention and early intervention, particularly 
as it pertains to the Second Chance Act, implementing a very 
aggressive process.
    But States and county policymakers have begun all over the 
country exploring new strategies for addressing the corrections 
crisis that is fiscally crippling their budgets. Several 
States, as I have indicated, have turned to criminal justice 
reinvestment projects to help them find solutions to 
incarceration and corrections crisis without compromising 
public safety.
    Criminal justice reinvestment involves redirecting 
corrections moneys into policies that keep people safer while 
slowing the growth of prison and jail populations. The idea is 
to reinvest the resulting savings back into the community in 
ways that advance the goals of public safety through strategies 
proven to be effective and efficient in accomplishing that 
result.
    To put it simply, both H.R. 4080 and H.R. 4055 address the 
country's incarceration crisis by focusing on crime policies 
that work. In this hearing, we will consider both of these 
bills that will support criminal justice reinvestment projects 
across the country.
    To inform our consideration of these bills, witnesses will 
highlight the work of several States and counties that have 
developed innovative justice reinvestment policies, some of 
which have already proven very effective at reducing recidivism 
and helping people overcome their substance abuse problems.
    H.R. 4080, the ``Criminal Justice Reinvestment Act of 
2009,'' creates a new public safety performance grant program 
for State and local governments to implement justice 
reinvestment strategies. It has two phases of funding: Phase 
one grants are for the analysis of the criminal justice system 
data, the evaluation of criminal justice policies, and the 
cost-effectiveness of their current spending on corrections, as 
well as the development of data-driven policies that can 
increase public safety and improve accountability of offenders.
    The bill mentions data-driven specifically, and you would 
wonder why you would have to put ``data-driven'' in a bill; 
isn't that insulting? Well, if you didn't put it in there, it 
would not be data-driven, it would be slogan-driven. So we have 
to outline, and I thank the gentleman from California for 
putting that in his bill specifically.
    This type of funding is critical because many States lack 
adequate research capabilities to analyze the causes of the 
exploding State prison and jail populations and high recidivism 
rates. States and counties are in the midst of fiscal crises, 
and they simply do not have the funds to dedicate debt 
necessary for the research that is needed to develop the 
policies that directly target the problems that they are 
having. This grant program will help them do that so the 
policies that are formulated are based in research and evidence 
about what works.
    Phase two will be implementation, to fund the programs and 
strengthen the criminal justice system, such as providing 
training and technical assistance or support the delivery of 
risk-reduction programs. These grants also support the 
reinvestment of averted prison or jail costs in the programs 
that enhance public safety by strengthening the criminal 
justice system, because criminal justice reinvestment means 
reinvesting the savings in the much-needed services such as 
drug treatment or re-entry assistance to the high-risk 
communities and individuals from which the jail or prison 
populations are drawn. And, as I indicated, this will be 
reinvested. As the savings are achieved, the money will be 
reinvested back into prevention and early intervention 
programs.
    The bill authorizes $35 million for each of the fiscal 
years 2010 to 2014 and requires the Attorney General to report 
to Congress yearly on the implementation and performance of the 
policies, thereby ensuring accountability of the grants.
    One example of the criminal justice reinvestment strategy 
that has had concrete and compelling results is Hawaii's HOPE 
Probation Project. According to the U.S. Bureau of Justice 
Statistics, at year end more than 7 million people were under 
corrections supervision in the United States, including 70 
percent who were supervised in the community on probation or 
parole and 30 percent who are held in custody in jails and 
prisons. This means that one out of 45 people are on community 
supervision, with the majority on probation, nearly 4.3 
million, an increase of nearly 300 percent since 1980. The 4.3 
million probationers represent an increase from 3.8 million in 
2000 and accounts for 80 percent of the growth in corrections 
population between 2000 and 2009.
    It is noteworthy to note that the number of probationers 
who have drug problems is also on the rise. Three in 10 
probationers were drug offenders in 2008, up from just a 
quarter in 2000. What this tells us is that more people are on 
probation now than ever before and they have significant needs.
    Six years ago, Judge Alm from Hawaii's First Circuit Court 
did something about it. In 2000, he launched a pilot project 
aimed at reducing probation violations by offenders who posed a 
high risk of recidivism. The program, called Hawaii's 
Opportunity Probation with Enforcement, HOPE, consisted of 
intensified supervision of probationers, including random drug 
testing, frequent meetings between offender and their probation 
officer, and substance abuse services as appropriate. The HOPE 
probation represented a stark change from the way probation 
violators were typically handled by the probation office.
    Inspired by the success of Hawaii's HOPE project, H.R. 
4055, the ``Honest Opportunity Probation with Enforcement Act 
of 2009,'' would create a comprehensive grant demonstration 
project to award grants to State and local courts to establish 
probation programs to reduce drug use, crime, and recidivism by 
requiring swift, predictable, and graduated sanctions for 
noncompliance with conditions of probation.
    Twenty-five million dollars is authorized for up to 20 
pilot programs. Stringent grantee requirements will ensure that 
the pilots are designed and evaluated in an appropriate manner. 
The key facets of each program will include the use of regular 
drug testing; responding to violations of probation rules with 
immediate arrest; and swift and certain modification of 
conditions of probation, including imposition of short jail 
stays.
    There is also an evaluation component to compare the 
outcomes between program participants and similarly situated 
probationers not in the program. It will also include a 
calculation of the amount of cost savings resulting from the 
reduced incarceration achieved through the program and a 
determination of how much can be invested into more policies 
that work.
    The criminal justice reinvestment can take on different 
forms, and it won't look the same in every city or county or 
State, because it should be tailored to meet the needs of each. 
Today we will hear about different justice reinvestment 
initiatives from several States and counties, each unique and 
some still in the early stages.
    The success that has already been achieved, however, 
demonstrates that the dual goals of keeping people safe and 
decreasing corrections spending are not mutually exclusive. It 
is with hope inspired by the important justice reinvestment 
work that has already been undertaken that I invite everyone to 
listen to the diverse witnesses who will testify at today's 
hearing.
    [The bills, H.R. 4080 and H.R. 4055, follow:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    Mr. Scott. It is now my pleasure to recognize our 
colleague, the Honorable Ted Poe from Texas, who is 
substituting for Ranking Member Gohmert today.
    Mr. Poe. Thank you, Mr. Chairman.
    I want to thank you for convening this hearing to discuss 
both of these pieces of legislation, the ``Criminal Justice 
Reinvestment Act'' and the ``HOPE Initiative Act.'' Both bills 
aim to reduce criminal recidivism and curb the cost of State 
and local law enforcement efforts.
    H.R. 4080, the ``Criminal Justice Reinvestment Act,'' 
creates a Federal program to assist State and local government 
efforts to reform the criminal justice systems. The bill 
authorizes the Attorney General to provide grants to help 
jurisdictions study criminal justice trends and implement 
policies that provide cost-effectiveness of corrections 
programs.
    Similarly, H.R. 4055, the ``HOPE Initiative Act,'' creates 
a Federal grant program to help State and local jurisdictions 
to reform their probation systems. The program is modeled after 
that successful experiment in Hawaii that decreased the strain 
on corrections facilities by instructing probationers and 
parolees on the true consequences of violating the term of 
their release.
    While both of these new Federal programs will cost money up 
front, results from test programs in the States have yielded 
significant overall cost savings down the road. These bills 
are, therefore, ultimately likely to save the States and, of 
course, the taxpayers' money, while contributing to a 
noticeable increase in public safety.
    In the face of projected record State budget deficits, 
certain States, including my own State of Texas, have 
undertaken criminal justice reinvestment initiatives to save 
money by reducing inefficiencies in State and local criminal 
justice systems. I am pleased to welcome as a witness today 
Representative Jerry Madden of the Texas House of 
Representatives, who played a central role in reforming the 
Texas prison system to operate more effectively.
    I will ask you momentarily, Representative Madden, how many 
people are in the State penitentiary in Texas today, but I 
suspect it is around 160,000.
    Mr. Madden. It is 153,950, as of the end of tomorrow.
    Mr. Poe. I know, you go and you check the stats every day.
    And a lot of those people that are in the Texas 
penitentiary I know on a personal basis.
    But, anyway, in Travis County, for example, in Travis 
County, Texas, a 2-year overhaul of the adult probation 
department reduced recidivism rates in part by funding classes 
to teach offenders how to adjust their thinking and make better 
moral choices.
    In May of 2007, the Kansas State legislature created a 
program for community corrections programs to design strategies 
to reduce revocations by 20 percent. The legislature approved 
good time credits to encourage offenders to successfully 
complete educational, vocational, and treatment programs prior 
to their release. The State of Kansas is supposed to be able to 
save about $80 million in the next 5 years.
    I am proud to be the cosponsor of H.R. 4055, the ``HOPE 
Initiative''; however, the leading advocate for this 
legislation is the sponsor, chief sponsor, Congressman Adam 
Schiff from California. I appreciate his work on this 
legislation. This legislation will provide funding for up to 20 
pilot programs in which State and local court systems impose a 
set of graduated penalties for probation and parole violators.
    I hope the HOPE programs will yield successes similar to 
those realized in the State of Hawaii. The Pew study says the 
HOPE probationers in Hawaii were 55 percent less likely to be 
arrested for a new crime; 72 percent less likely to use drugs; 
61 percent less likely to skip appointments with their 
probation officer; and 53 percent less likely to have their 
probation revoked than offenders who weren't in the program.
    If passed, both of these pieces of legislation will save 
States money in the long run by developing efficient methods 
for deterring crime and sentencing law violators. As a former 
State judge, I support efforts to develop creative methods to 
reduce crime and recidivism at the State, local, and Federal 
level. And these bills, I think, will do so while promoting 
public safety and saving taxpayers' money.
    In my experience as a judge for 22 years, it seems to me 
that, when a person is sentenced, the sentence must mean 
something. Too often, what takes place in a courtroom is 
meaningless; it doesn't mean anything to anybody. It should 
certainly mean something to the offender; it should mean 
something to the victim. And the public must feel like there is 
a sense of justice when that sentence is imposed. And, too 
often, there is a perception that if a person receives a 
probated sentence, it is just giving away the courthouse to the 
defender and he is never going to be held accountable for that. 
Hopefully, those times can change and this legislation will 
bring some consequences for violating a person's probation. 
What a novel concept.
    So I yield back the balance of my time, and I will have 
questions later.
    Mr. Scott. Thank you.
    We have two panels of witnesses who will help us consider 
these important bills today.
    Our first panel will have one witness, our colleague, the 
gentleman from California's 29th District, Representative Adam 
Schiff, who introduced both H.R. 4080 and H.R. 4055.
    Representative Schiff serves on three Committees. In 
addition to serving on the Judiciary Committee, he serves on 
the House Appropriations Committee and three Subcommittees on 
the House Appropriations Committee, including the Commerce, 
Justice, Science, and Related Agencies Subcommittee; also 
serves on the Permanent Select Committee on Intelligence.
    As a former prosecutor, he has particular expertise when it 
comes to his service on this Subcommittee as well as the full 
Judiciary Committee.
    Mr. Schiff?

TESTIMONY OF THE HONORABLE ADAM B. SCHIFF, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Schiff. Thank you, Mr. Chairman and today's Ranking 
Member, Mr. Poe. I want to thank you both for calling the 
hearing today and for inviting me to testify before the 
Subcommittee.
    Under your leadership, this Subcommittee has closely 
examined criminal justice policy issues by focusing on the 
promotion of proven strategies for use of evidence-based 
research. Today's hearing will focus on two pieces of 
legislation that are based on innovative and highly promising 
approaches to addressing criminal justice issues.
    A recent Pew study indicates that one in 31 adults is under 
correctional control. That is up from one in 77 in 1982. Over 
the past two decades, corrections has been the second-fastest-
growing area of State expenditures, second only to Medicaid. 
State corrections costs now top $50 billion, consuming one in 
every 15 discretionary dollars, a significant increase from the 
$10 billion spent some 20 years ago. These numbers, as you have 
pointed out, Mr. Chairman, are unsustainable, and it is clear 
that our approach must drastically change.
    Determining how to best address our criminal and juvenile 
justice systems is a task that policymakers have grappled with 
for years. New and innovative approaches often lose out to 
established and well-known initiatives even where outcomes are 
not sufficiently positive, as Congress is often wary of 
experimentation. As policymakers, we must think outside the box 
more often and explore new and innovative ideas to tackle 
criminal justice problems. This is especially important in 
areas that we have attempted to address for some time but with 
little success.
    Budget cuts and prison overcrowding are creating a crisis 
situation in many States. In my home State of California, 
prisons house over 171,000 inmates, nearly twice their 
operating capacity, and we have spent almost 10 percent of 
total general fund expenditures on corrections. Because of 
unacceptable overcrowding, we are now faced with a judicial 
order to release about a quarter of our entire prison 
population.
    Data-driven reinvestment strategies can assist policymakers 
in California and elsewhere to reduce spending on corrections 
while increasing public safety. Promising results, as 
Representative Poe has pointed out, have been seen in places 
like Texas, Kansas, and other jurisdictions after such 
strategies have been implemented. And you will hear about how 
some of these successes were accomplished from the panel that 
follows.
    Based on the successful work, we have introduced the 
bipartisan ``Criminal Justice Reinvestment Act of 2009'' with 
my colleague Dan Lungren, and Senators Whitehouse and Cornyn 
have introduced identical legislation, recently reported out of 
the Senate Judiciary Committee with bipartisan support.
    This legislation is designed to assist State and local 
governments in implementing justice reinvestment strategies. No 
two States are the same, and the drivers of increased 
corrections costs and prison populations are unique in each 
State. The legislation, therefore, devotes grant funding for 
intensive analysis of criminal justice data, policies, and 
cost-effectiveness of current spending on corrections in order 
to develop data-driven policy options that can address this.
    The bill then provides resources for the implementation of 
solutions--for example, providing training and technical 
assistance or support for the delivery of risk-reduction 
programs--and for reinvesting averted prison costs to bolster 
such initiatives.
    Currently, there are at least 14 States on a waiting list 
seeking such technical assistance, and eight other States are 
seeking to expand such work. Congress has the opportunity to 
step in and help answer this call for assistance.
    Another area where we have to look for new ideas and 
approaches is our drug policy. The conservative American 
Enterprise Institute concluded in a study that tough 
enforcement, the centerpiece of American drug policy in terms 
of rhetoric, budget, and substance, has little to show by way 
of success.
    A substantial amount of crime and a substantial share of 
prison occupancy is directly tied to illicit drug consumption. 
In addition, we know that a relatively small group of chronic 
drug users consumes the vast majority of illicit drugs in the 
U.S., and about three-quarters of this group pass through the 
criminal justice system at some point. So reducing drug 
consumption in the U.S. requires effectively addressing the 
drug habits of supervised offenders.
    Furthermore, the failure of individuals serving terms of 
probation to successfully complete those terms is a major 
contributor to prison admission. For example, in 2007, more 
than a quarter-million individuals on probation were admitted 
to prison. Effectively addressing drug use by these individuals 
will reduce national drug consumption, crime rates, and burdens 
on taxpayers.
    In 2004, Judge Steven Alm of Hawaii launched a pilot 
program to reduce probation violations by offenders at high 
risk of recidivism. This intensified supervision program, 
called Hawaii's Opportunity Probation with Enforcement, or 
HOPE, uses graduated sanctions, beginning with the threat of 
short jail stays, as an incentive for compliance. Defendants 
are clearly warned that, if they violate the rules, they go to 
jail. Participants receive swift and immediate sanctions for 
each violation, such as testing dirty for drugs or missing 
appointments with a probation officer.
    The results, as Mr. Poe indicated, are very positive: 55 
percent less likely to be arrested for a new crime; 72 percent 
less likely to use drugs; 61 percent less likely to skip 
appointments; 53 percent less likely to have their probation 
revoked.
    An article in the Journal of the American Medical 
Association found that, if the HOPE initiative was replicated 
effectively in multiple jurisdictions, the program might have 
broader benefits beyond assisting probationer participants at 
risk for heavy drug use, such as helping to shrink the market 
for illegal drugs and the profits of drug trafficking 
organizations.
    I have introduced bipartisan legislation with my colleague, 
Representative Poe of Texas, that would promote and expand the 
use of this model in a number of jurisdictions across the 
country.
    And I very much appreciate your leadership and support, 
Representative Poe. It is good when you have a former 
prosecutor team up with a former judge.
    The Honest Opportunity Probation with Enforcement, or HOPE, 
Initiative of 2009 is designed to promote the establish of 
probation demonstration programs that reduce drug use, crime, 
and recidivism by requiring swift, predictable, and graduated 
sanctions for noncompliance. Stringent requirements will ensure 
that the pilots are designed and evaluated in an appropriate 
manner, and our legislation would require determination of the 
cost savings resulting from the program and an accounting for 
reinvestment of those savings for expansions of the effort.
    Earlier today, President Obama transmitted to Congress the 
2010 National Drug Control Strategy. In this blueprint for 
reducing illicit drug use and its harmful consequences in 
America, support is specifically outlined for Project HOPE and 
drug testing with certain and swift sanctions in probation and 
parole systems. The strategy notes that Federal agencies will 
look for opportunities to expand such programs throughout the 
country in collaboration with State, local, and tribal 
agencies.
    In closing, Mr. Chairman, I want to commend you again for 
your leadership in this area and for focusing the 
Subcommittee's attention on these two innovative and promising 
approaches. I urge the Subcommittee to act on these proposals 
so we can address these issues this Congress.
    I thank you, Mr. Chairman, and yield back.
    [The prepared statement of Mr. Schiff follows:]
          Prepared Statement of the Honorable Adam B. Schiff, 
       a Representative in Congress from the State of California
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
    Mr. Scott. Thank you.
    Are there questions for our colleague?
    If not, I would just recognize the presence of the 
gentleman from Illinois, Mr. Quigley, who has joined the panel.
    Thank you, Mr. Schiff. And we are going to hear the next 
panel, who will, I hope, say nice things about your bills.
    Mr. Schiff. Thank you, Mr. Chairman. I hope so, too.
    Mr. Scott. If the second panel will come forward.
    The second panel will consist of five witnesses, and I will 
introduce them as they come forward.
    Our first witness will be Adam Gelb, who directs the Public 
Safety Performance Project at the Pew Center on the States. At 
Pew, Mr. Gelb works directly on justice reinvestment 
initiatives in various States.
    He previously worked for the Georgia Council on Substance 
Abuse and Georgia's Governor's Commission on Certainty in 
Sentencing; also for the Lieutenant Governor of Maryland and 
the U.S. Senate Judiciary Committee.
    He has earned a bachelor's degree from the University of 
Virginia and a master's degree in public policy from Harvard 
University's John F. Kennedy School of Government.
    If all of our witnesses will come forward.
    Our second witness today is Chief Justice John Broderick of 
the New Hampshire Supreme Court. He has held this position 
since 2004. He serves as the chair of the Leadership Group on 
Justice Reinvestment Initiatives in New Hampshire.
    Prior to his service on the bench, he was in private 
practice and served in various community service positions, 
including as a member of the board of directors of the National 
Legal Services Corporation. He is a graduate of the College of 
the Holy Cross and the University of Virginia Law School.
    The third witness is Representative Jerry Madden of the 
Texas House of Representatives. First elected in November 1992, 
he is now in his ninth term. He serves on various committees, 
including vice chair of the Committee on Corrections, which he 
chaired from 2005 to 2009, and the Judiciary and Civil 
Jurisprudence Committee.
    He is a graduate from West Point, spent 6 years in the 
Army, and holds a master's degree from the University of Texas 
at Dallas.
    Our next witness is Nancy La Vigne, director of the Justice 
Policy Center at the Urban Institute, where she works on 
justice reinvestment initiatives at the county level. Before 
being appointed as director, she served for 8 years as a senior 
research associate at the institute.
    She holds a bachelor's degree from Smith College, a 
master's from the University of Texas at Austin, and a Ph.D. 
from the School of Criminal Justice at Rutgers.
    Our final witness will be Steven Alm of Hawaii's First 
Circuit Court. He was sworn in as a judge in 2001. And, as I 
noted in my remarks, he formed the HOPE program in 2004. Prior 
to his judicial appointment, he served as a U.S. attorney for 
the District of Hawaii from November 1994 until April 2001.
    He received his law degree from the University of the 
Pacific and his master's degree in education from the 
University of Oregon.
    And we will begin with Mr. Gelb.

  TESTIMONY OF ADAM GELB, DIRECTOR, PUBLIC SAFETY PERFORMANCE 
       PROJECT, PEW CENTER ON THE STATES, WASHINGTON, DC

    Mr. Gelb. Thank you, Chairman Scott, Members of the 
Subcommittee. I appreciate the opportunity to testify before 
the Subcommittee today.
    As you said, my name is Adam Gelb. I am director of the 
Public Safety Performance Project at the Pew Center on the 
States. Our mission is to help States advance policies and 
practices in sentencing and corrections that protect public 
safety, hold offenders accountable, and control corrections 
costs.
    All of us at Pew applaud you for your leadership here, 
along with Representative Schiff, Representative Poe, and 
Representative Lungren, for your leadership in bringing these 
two bills to the public attention and moving them forward, 
because they really take aim at a common challenge: How can our 
Nation get a better return on its massive investment in public 
safety?
    And violent and career criminals need to be off the streets 
and behind bars and for a long time; there is no question about 
that. But over the past three decades, the United States, as 
you pointed out, Mr. Chairman, has built a prison system larger 
and more expensive than any other on the planet.
    When you look at the numbers, the way they were calculated 
there, you have these, sort of, hard-to-grasp calculations: 
700, 500 per 100,000. As we pointed out a couple years ago, 
when you take juveniles out of the equation and you just look 
at how many adults are in prison versus how many adults are in 
the population, you get one in 100. We have one in 100 adults 
in this country now behind bars.
    That is the equivalent of locking up every single adult in 
Miami, Florida; in Beaumont, Texas; in San Jose--we picked 
these cities at random--Miami; San Jose; Beaumont; Richmond, 
Virginia; Memphis, Tennessee; and Detroit, all the adults in 
those cities combined. That is 2.3 million adults in this 
country behind bars, one out of 100.
    You all have already gone over the costs extremely 
thoroughly here. Now more than $50 billion that States are 
spending; probably over $70 billion when you add in the Federal 
and local costs.
    I would just add here quickly that our ``One in 31 Report'' 
that you cited a little bit earlier tracked the cost of what we 
have been spending on probation versus prisons and how the cost 
of corrections overall has been extremely tilted toward 
prisons. In fact, that massive growth in overall corrections 
spending, almost 90 percent of that increased spending has gone 
to prisons, yet two-thirds of the growth in the correctional 
population over the last 25 years or so has been on probation. 
So probation is two-thirds of the growth and only about 10 
percent of the funding increase.
    What have we gotten for all this money? Crime rates have 
fallen since the mid-1990's, no question about it, and the 
research shows that prisons clearly can stake a modest part of 
the credit for that. But crime is still too high, and 
recidivism rates do not appear to have dropped. In fact, 
inmates leaving a State prison in this country these days 
probably have spent a few more months behind bars than they 
would have 25 years ago but they are just as likely to commit 
crime and return to crime when they come home.
    The good news is that we now have solutions, new strategies 
revealed by research that both cut crime and lower cost to 
taxpayers. The first is justice reinvestment. JR is an overall 
approach to State policy reform aimed at increasing public 
safety by cutting prison costs and reinvesting those savings 
into mandatory supervision and other alternatives that produce 
superior results. It was pioneered by the Council of State 
Governments' Justice Center and has now been applied in a dozen 
States across the Nation.
    Texas, as we will hear from Representative Madden, probably 
provides the best example of the power of the justice 
reinvestment strategy. Texas is the very symbol of law and 
order in this country, and yet, 3 years ago, Texas leaders just 
said no to a proposal to build eight more prisons and, instead, 
took the billion dollars that they would have spent on prisons 
and spent about a quarter of that on building out a network of 
residential and community-based programs.
    Since 2007, Texas has reduced its prison population, it has 
reduced its corrections spending, and, most importantly, it has 
reduced the crime rate and recidivism rates all at the same 
time. So Texas has really proven that we can have less crime at 
a lower cost.
    Justice reinvestment works because it is bipartisan; 
because it is interbranch, it is an interbranch approach; and 
because it is driven by data; but also because its fundamental 
premise is that prisons are a government spending program, and, 
just like any other government spending program, they should be 
put to the cost-benefit test.
    The second strategy we are talking about today, HOPE, 
offers perhaps the most promising program model for cutting 
crime and costs. As you have outlined and Representative Schiff 
mentioned, more than 5 million people are on probation or 
parole in this country today, twice the number behind bars. 
They do consume as much as half of the hard drugs in this 
country--cocaine, heroin, and meth.
    And when they fail drug tests on probation or break other 
rules of community supervision, they land back in prison. In 
fact, parole and probation violators are a leading driver of 
prison admissions in this country, reaching almost two-thirds 
of prison admissions in some States. So if we even have a small 
impact on this population, we can have a huge, dramatic impact 
on crime and drug abuse and cost in this country.
    But HOPE's success, as you have outlined, has been huge. In 
a gold standard evaluation, a randomized, controlled trial, as 
you have heard, HOPE probationers were compared to a control 
group. Arrests were down 55 percent, positive drug tests down 
72 percent, and the number of days they spent in jail and 
prison were also down by half. So just imagine what the impact 
could be on crime and cost of victimization across this country 
if HOPE were brought to scale.
    The Federal role here is clear and compelling. These 
efforts may multiply on their own, and probably will to a 
certain extent, but in the current economic environment 
widespread adoption is not likely. That means more business as 
usual--more crime, more victims, more arrests, more 
prosecutions, and still more incarceration.
    In conclusion, nearly 40 years ago prisons became America's 
weapon of choice in the fight against crime. And there is no 
question that prisons have helped cut crime. But that is no 
longer the question at hand. The right question, the one that 
more and more budget-strapped States are asking is, what 
policies and programs would do a better job cutting crime and 
do it at a lower cost? HOPE probation and justice reinvestment 
offer potent answers. Dollar for dollar, Congress couldn't make 
two better investments in public safety.
    Thank you again for the opportunity to testify with the 
Subcommittee today.
    [The prepared statement of Mr. Gelb follows:]
                    Prepared Statement of Adam Gelb
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you.
    I forgot to mention the lighting device that is at the 
table. I would ask you to your confine your comments to 5 
minutes, to the extent that you can.
    Justice Broderick?

   TESTIMONY OF THE HONORABLE JOHN T. BRODERICK, JR., CHIEF 
    JUSTICE OF THE NEW HAMPSHIRE SUPREME COURT, CONCORD, NH

    Justice Broderick. Chairman Scott, Congressman Poe, for the 
record, my name is John Broderick. I have the privilege to 
serve as the chief justice of the New Hampshire Supreme Court 
and have done so since 2004.
    I appear before you today to speak in support of the 
Criminal Justice Reinvestment Act, which would enable more 
States like mine and local jurisdictions to utilize the kind of 
data-driven and bipartisan justice reinvestment process that 
New Hampshire has found to be so valuable.
    I would like to offer an account of the assistance New 
Hampshire has received over the last year, thanks to the 
support of the Department of Justice Bureau of Justice 
Assistance, the Pew Center on the States, and the New Hampshire 
Charitable Foundation.
    Last year, the leadership of New Hampshire, all three 
branches of government--the Governor, the Senate President, the 
House Speaker, and myself--came together for a new approach to 
address the serious challenges facing our corrections system in 
New Hampshire. I joined with other State leaders to request 
this assistance because the costs of recidivism are too high, 
both in terms of lives and budgets, and because it is long past 
time to begin bending the cost and public safety curves back 
toward less spending and better outcomes.
    New Hampshire was facing many challenges. Over the last 
decade--and our State, by the way, has a population of only 1.3 
million people--over the past decade, our State's prison 
population had increased 31 percent and spending on corrections 
had doubled to over $100 million. To give you a benchmark of 
sorts, New Hampshire spends only $76 million a year on the 
court system. The recidivism rate in New Hampshire had 
increased dramatically over the previous 10 years and was above 
the national average.
    Unless New Hampshire took action, independent estimates 
suggested that our prison population would otherwise soon 
increase by another 11 percent at a cost of $179 million in 
construction and operations.
    The Council of State Governments' Justice Center provided 
technical assistance and real expertise, allowing us to fully 
investigate the root causes of the growth of our corrections 
system and to establish a process to begin, together with State 
leaders from both parties and stakeholders from across the 
criminal justice spectrum, to review the analysis they 
produced.
    Over a period of several months, a working group chaired by 
the attorney general, composed of all three branches of 
government, myself included, as well as representatives of 
county government and the public at large, carefully reviewed 
the analysis presented by the Justice Center.
    The process revealed, surprisingly to us, that 57 percent--
57 percent--of the people admitted to our State prison in the 
previous year had not committed a new crime; rather, they 
failed to comply with the conditions of their probation or 
parole, which resulted in their being incarcerated. The vast 
majority of those individuals returned to jail or went to jail 
for the first time on a probation violation because of drug or 
alcohol abuse.
    Despite significant growth in the probation and parole 
population, the number of offices supervising the population 
had been stable. Caseloads had risen, and we did not have the 
right tools to hold those folks accountable. And so the default 
position, sadly, is: revoke their probation, revoke their 
parole, send them to prison at $32,000 a year. It is a failed 
system. It doesn't make any sense. It didn't make any sense to 
us.
    Relying upon data analysis and stakeholder input, the 
working group endorsed a set of pragmatic policy options that 
policymakers and stakeholders across the criminal justice 
system in my State embraced. They included increased 
supervision for those most likely to re-offend; not to treat 
everyone the same; new tools for probation and parole officers 
to hold offenders accountable when they failed to play by the 
rules in their communities; and expanded access to substance 
abuse and, I want to underscore, mental health treatment.
    In my State, in the 1980's, we were rated number one in the 
United States in mental health services in the community. We 
are now rated somewhere around 38th in America. It is no 
surprise to me that the jails have shown the increase.
    The policy framework we were provided has turned into 
bipartisan legislation--bipartisan legislation--in a time when 
bipartisanship is almost extinct. And that legislation was 
recently approved by both houses of our legislature with 
overwhelming support. For New Hampshire, this will mean safer 
communities with lower recidivism, cost savings for the State 
and counties, and saved lives and saved families.
    Over the next 4 years, our State is on track to save 
between $7 million and $10 million. I know that must not sound 
like a lot of money in this city, but in my State of New 
Hampshire, where the budget is in stress, I can assure you it 
is a lot of money.
    The most important changes, however, are that lives, people 
can be restored through effective treatment and appropriate 
supervision and that increased public safety will follow lower 
recidivism rates, as has shown to be true in Texas and Kansas.
    It is my belief, 22 years as a lawyer, 15 years as an 
appellate judge, and the belief of many in my State who have 
been involved in this effort through the justice reinvestment 
initiative, that other States and local jurisdictions would 
benefit greatly, would benefit greatly, from the additional 
resources that would be made available under this act to help 
them secure access to data, which we needed so desperately, and 
to reduce taxpayer spending.
    As I said, in New Hampshire I think we have reached the 
point in American society on this issue where good social 
policy and good economics have finally intersected. And I 
encourage you to pass this legislation. It is a powerful tool 
for change, and the status quo is not working.
    Thank you, Mr. Chairman.
    [The prepared statement of Justice Broderick follows:]
       Prepared Statement of the Honorable John T. Broderick, Jr.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you.
    Representative Madden?

           TESTIMONY OF THE HONORABLE JERRY MADDEN, 
           TEXAS HOUSE OF REPRESENTATIVES, PLANO, TX

    Mr. Madden. Thank you, Mr. Chairman, Judge Poe, Mr. 
Quigley. It is good to be here today.
    I am the rookie in this group. There is a lot of years of 
experience up here. My years in criminal justice didn't start--
I was a member of the legislature for 12 years, had never had a 
criminal justice bill in my background. I am not a lawyer. I 
was not involved in the criminal justice system. I am an 
engineer by background.
    And, in doing that, I had no experience until the Speaker 
calls me in ine day and says, ``You are chairman of 
corrections.'' And, of course, I look over and, as you always 
do to the Speaker, you say, ``Thank you, Mr. Speaker.'' And 
under my breath, I am saying, ``Oh, God, why me? What did I do 
to deserve this.''
    But I then ask him, I said, ``Well, what do you want me to 
do, Mr. Speaker?'' And he told me one thing; he said, ``Don't 
build new prisons. They cost too much.'' And that is what 
started Texas down this road, because I had never heard of what 
you would call justice reinvestment now, but we started looking 
at those kinds of things.
    I looked at it as an engineer. Simple project. I can't 
build any more of these; I have a block, it is this big. I 
can't do anything, I can't build anymore. I have people coming 
into that, I have people going out of it. I can tell you, in 
Texas, to control that population, if I had more coming in, it 
looked like we were having more coming in, it was not going to 
be a satisfactory solution to open the doors and let them out. 
So, at that stage, we had to figure out, well, what can I do, 
and started looking at how do I at least do something about the 
input?
    Fortunately, we had some people working from our department 
of corrections, particularly in our areas that do probation, in 
our probation departments, and they had looked at probation and 
had some good information that they started off with. And they 
had an idea of how cost worked and things like that, how they 
could do some savings, how many people were coming in and out 
of probation and how many were coming back in for revocations 
of probation, et cetera.
    That was my starting point. So I had to start looking at 
cost, I had to start looking at programs, and I looked 
basically at how this whole system worked, looking at this 
whole equation of incoming and outgo. And basically I had a 
system that had 157,000 people in it. We have about 72,000 
people come into the system every year, into the prisons, and 
about 72,000 leave every year.
    But we had this recycling going on, obviously people coming 
back, this thing called recidivism, returned people coming 
back. What were we doing? And I started looking at, well, what 
were the alternatives?
    Fortunately, in Texas, we had a couple of groups that are 
think tanks. One is a very conservative think tank, our Texas 
Public Policy Foundation, and we have a Criminal Justice Policy 
Council that is a much more liberal think tank. And we had them 
in, and we were looking at a probation bill.
    I fortunately had found on the Senate side a senator who 
knew a lot about the criminal justice system. His name is John 
Whitmire. He happened to be the opposite party that I am, but 
he was the Chairman of the Senate Criminal Justice Committee. 
And I will tell you, he knows more about what goes on in the 
prisons in Texas than probably any other legislator does or 
probably ever will. He knows more than I do.
    But we had certain things that he looked at. He came up 
with a probation bill that I had to do some major modifications 
on, because it wasn't going to pass my side of the House unless 
we did some major things. We came within one vote of passing 
that bill that time, and that was the Governor's. But we 
fortunately had learned a lot about what the process was.
    Because when we came in in our 2007 legislative session, we 
had a projection from our Legislative Budget Board that said we 
were going to need 17,000 new prison beds. Remember, my boss 
had told me, ``Don't build new prisons,'' and I got a forecast 
that says I need 17,000 more of them. What could we do 
differently?
    And that is when we had looked at--in the interim, we had 
looked at what are the alternatives that were out there. That 
is when I got to meet people like Adam Gelb and like Mike 
Thompson from the Council of State Governments and so many of 
the other people around here that are around this table. They 
would come in, and I started learning that they were out there, 
they had some wonderful ideas, some great ideas, and we started 
putting them together.
    And in that period of time just before that session, we 
basically came up with the ideas of the things that Texas could 
do. We had fortunately had some researchers and had done some 
things in Texas previously that had proved to have worked. We 
just didn't have enough of them, we didn't have enough people 
involved in them, and we needed to expand those resources.
    We did that. That was the great thing that we did. We 
basically did not invent a new program. We took and added to. 
We found those things that would break the cycle, because we 
looked at breaking the cycle of people in the prison system in 
five different places. I looked at those people who were 
leaving on parole, and we did some things in parole. I looked 
at what happened in the prison systems so that we could make a 
difference on the programs that were there and making sure that 
the people had the right programs they needed so that we could 
change their minds and their hearts.
    We looked at the probation side and tried to see, well, 
what else can we do to reinforce probation and the work they 
were doing and giving additional resources to our judges and 
our other people that are in the system at that stage. And that 
is where we did things like--we are going to hear about some of 
the additional specialty courts that are out there. We did 
some, obviously, reenforcement in those specialty courts and 
public funding.
    We looked at breaking the cycle in the schools, because you 
have this pathway to prison that is out there that people get 
on, and how do you break that. And I looked even younger and 
saw all those things that we could do.
    We actually put those to work in our funding bill; we 
actually passed them in that. We actually thought it was going 
to work. I will tell you, there are some things that need to be 
given to a legislator like myself to give us the standing that 
we can and the support that we need.
    First of all, we need data. As an engineer, I didn't have 
enough data. There were some of these things that we were 
wandering on with a prayer that they were going to work. There 
is research that is needed, additional research. Every bit of 
that helps; every bit can do some good things for us. And we 
can't do all of that within our own resources.
    And there are some good research that is done outside of 
our own particular State. We needed the dissemination of that 
information--gosh, it is hard to get--what really works, what 
actually makes a difference, and what can save the State money.
    Because I found that this was a great tool for both my--it 
was a truly bipartisan legislation. Because for my Democratic, 
liberal friends, it made a lot of sense to do things about 
people. It helped people. It changed lives. And for my 
conservative friends, it saved money. And you know what? We did 
both. In Texas, we did them both. And so, there are reasons to 
say that this is truly a bipartisan piece, because it works. It 
does work to do all of those things.
    Each State is different. I have learned that in the last 2 
years, because I am now the chairman of the Council of State 
Governments, on their board. I am the chairman of National 
Conference of State Legislators' Law and Criminal Justice 
Committee. I am the chairman of the American Legislative 
Exchange Corrections and Re-Entry Committee, just because of 
all the stuff we started doing in Texas.
    And the message that we have to the various States is: You 
have to do it yourself. You have to do what your system allows 
you to do. But in preaching that message to each of the States 
and learning what they can do, there is a great deal of 
innovation that is going on out there, a great deal of 
demonstrations and projects that are working, like the judge's 
program in Hawaii, that can, in fact, be implemented in other 
States that do make a big difference.
    And I thank the Committee.
    [The prepared statement of Mr. Madden follows:]
            Prepared Statement of the Honorable Jerry Madden
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you.
    Dr. La Vigne?

TESTIMONY OF NANCY G. LA VIGNE, Ph.D., DIRECTOR, JUSTICE POLICY 
          CENTER, THE URBAN INSTITUTE, WASHINGTON, DC

    Ms. La Vigne. Mr. Chairman, Members of the Subcommittee, 
thank you for the opportunity to speak today about the justice 
reinvestment and HOPE initiative bills under consideration by 
this Committee.
    I am director of the Justice Policy Center at The Urban 
Institute, where we have engaged in extensive research on the 
impact of correctional policies on individuals, communities, 
and State and county budgets. In the course of conducting that 
research, we have spoken with State and local government 
leaders who strongly desire guidance on the most efficient 
strategies for allocating their scarce and often diminishing 
criminal justice resources in an effort to improve public 
safety. It is this appetite for a more effective criminal 
justice system that makes justice reinvestment, the HOPE 
project, and similar models so compelling.
    As has been well-documented, most States, counties, and 
cities are grappling with burgeoning criminal justice 
populations. While recent statistics indicate that some States 
have experienced their first declines in prison populations in 
many years, other States' populations continue to grow.
    But I believe I am here today to share the local context. 
And the truth is that local governments are in a similar, if 
not more dire, predicament. City and county governments have 
experienced a 30 percent increase in the number of people in 
jail or under criminal justice supervision in the past 10 years 
alone.
    The escalation in these local criminal justice populations 
has been accompanied by an 80 percent spike in county 
correctional costs in the last decade, with most of these 
expenses driven by jail costs. These costs create difficult 
choices for public officials, many of whom are forced to freeze 
or reduce spending on education and human services to balance 
their budgets. In effect, jail population growth can divert 
funds from programs and social services aimed at preventing 
people from entering the criminal justice system in the first 
place.
    So, what can city and county managers do to control these 
costs without compromising public safety? They can engage in 
justice reinvestment, a process designed for public officials 
who want to rethink how they allocate resources throughout 
their criminal justice and social services systems. This 
process is for leaders who are aiming not just to contain 
criminal justice costs but also to achieve a greater public 
safety benefit with current resources.
    Justice reinvestment can help prioritize jail space for 
those who pose the greatest risk to public safety, while also 
guiding which individuals will be better off in the community, 
where services and treatment may be more readily available. 
Justice reinvestment can also help achieve substantial cost 
savings by expediting the case processing of those awaiting 
trial or disposition, revising probation policies, creating 
more alternatives to jail for unsentenced populations, and 
preventing jail residents from returning by increasing re-entry 
preparation and services both before and after their release.
    The Urban Institute is working with three counties on 
justice reinvestment projects: Alachua County, Florida; 
Allegheny County, Pennsylvania; and Travis County, Texas. To 
date, the sites have collected and analyzed data to help 
understand what drives their criminal justice costs.
    In Alachua County, our analyses found that 85 percent of 
jail detainees are unsentenced. This led local officials to re-
examine the bail-bonding process, the use of bond reduction 
hearings, and the effectiveness of pretrial diversion programs.
    In Travis County, analyses revealed that frequent jailed 
residents make up slightly less than one-third of the jail 
population but account for over two-thirds of jail bed use. 
Many of these repeat residents are chronic inebriants, leading 
officials to explore the development of a sobriety center as a 
less expensive and potentially more effective alternative to 
jail incarceration.
    Allegheny County also identified a high proportion of 
repeat jail residents. Many have extensive histories of 
substance addiction, which prompted county decision-makers to 
create a goal of developing more substance abuse treatment beds 
in the jail and ensure that the jail is operating within its 
recommended capacity.
    Now, The Urban Institute's work with these sites has been 
supported with a grant from the U.S. Department of Justice 
Bureau of Justice Statistics. The grant covers the cost of 
Urban Institute staff in providing data analysis and technical 
assistance, but it does not support the staff time and other 
costs incurred by the sites. The ``Criminal Justice 
Reinvestment Act'' would therefore provide greatly needed 
resources to these sites and to other State, local, and tribal 
jurisdictions to help manage the growth in spending on 
corrections and increased public safety.
    In this time of shrinking budgets and increasing demands on 
the criminal justice system, the ``Justice Reinvestment Act'' 
and the complementary ``HOPE Initiative Act'' hold promise in 
helping jurisdictions manage and allocate scarce resources 
cost-effectively, generating savings that can be reinvested in 
more prevention-oriented strategies. In doing so, justice 
reinvestment can yield benefits for communities affected by 
crime, as well as for jurisdictions whose budgets arestrained 
by increases in the criminal justice population.
    Thank you for your time. This concludes my formal 
statement. I welcome any questions you may have later.
    [The prepared statement of Ms. La Vigne follows:]
                Prepared Statement of Nancy G. La Vigne
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
    Mr. Scott. Thank you.
    Judge Alm?

    TESTIMONY OF THE HONORABLE STEVEN S. ALM, JUDGE, SECOND 
    DIVISION, CIRCUIT COURT OF THE FIRST JUDICIAL CIRCUIT, 
                          HONOLULU, HI

    Judge Alm. Good afternoon, Mr. Chairman, Members of the 
Committee. I am Judge Steven Alm. I am thrilled to be able to 
come here and testify about HOPE probation.
    Over the last several years, I have worked with a group of 
dedicated public servants--State workers, city workers, Federal 
workers--who are working smarter and harder to make our 
probation system work better. And research is showing that we 
have cut arrests for new crimes, use of drugs, missed 
appointments, and getting sent to prison by more than half.
    This is not a miracle. This can be done everywhere. It 
takes coordination, it takes a will, and it takes an ability to 
put all the pieces together. It is a simple idea in concept; it 
is a little bit of a challenge to put together in reality.
    By way of background, I am a State felony trial judge. 
Murders, rapes, robberies, thefts, drugs are the standard fare. 
I think I come from the Judge Poe school: The violent and 
dangerous and those who won't stop stealing have to go to 
prison, often for a very long period of time.
    But most of the people in court are going to get put on 
probation, and we have got to do a better job of supervising 
them on probation.
    When I started on this calendar in June of 2004, I could 
tell the probation system was broken. I would get motions to 
revoke probations from the probation officer with 10, 20, 30 
individual violations of probation, and now the person was 
getting referred back to court. The PO had worked with them, 
threatened, cajoled them, whatever, until they had a good 
argument for revocation; and 99 times out of 100, the probation 
officer would be recommending to me, Send this person to 
prison, they are not amenable to probation; and I just thought 
there has got to be a better way to work this. This took hours 
on the PO's part, and we weren't getting a good result.
    So I thought to myself: this is a crazy way to try to 
change anybody's behavior, and I thought: What would work? I 
thought: What did I do as a father with my kid when he was 
younger? You tell him what not to do, how to behave; then if he 
violates that, if he misbehaves, you give him a consequence 
immediately. That is how we were raised. That is how we learned 
to tie together bad behavior with a consequence, and then you 
don't do it again.
    So I thought: How can I do that to provide swift, certain 
and proportionate consequences to the probation system? I knew, 
if you bring people to work together, that can happen, so I 
brought together court staff, probation, prosecution, defense, 
the courts, jails, the sheriffs, police--everybody working 
together to make this happen swiftly.
    First, we identified the highest risk probationers. As we 
have learned from research, if you focus on the highest risk 
folks--those convicted of violent crimes or who have violent 
histories, drug offenders, property offenders--and we have 
about a third of each--they are the most likely to fail and the 
most likely to go to prison.
    Secondly, in one of these meetings, the public defender 
said to me, You know, Judge, the rules are going to be the 
same, but you are actually enforcing them for the first time. 
Can you, like, warn our guys about this? So we thought that 
made sense.
    Next, we thought: How do we monitor people more closely? We 
set up a drug test hotline. Every weekday morning, the 
offenders are supposed to call the hotline to find out if they 
have to come into the courthouse that day for a drug test. It 
is going to come up at least once a week, maybe 2 days in a 
row. One of the offenders told me, I don't smoke meth anymore 
because every night I'm worried I'm going to get tested 
tomorrow, go to jail tomorrow. It just ruined the high, so I 
stopped.
    Now, you know, when they come in for these drug tests, 
these are observed urine tests. So I had one young lady. She 
had a little vial strapped to her rear end. She tried to 
substitute it for the test. She got caught, so when she came to 
court, I gave her more time in jail for tampering, but I also 
told her, Young lady, you are going to have to get some new 
friends because that sample was dirty, too.
    Fourth, the probation officers have to act immediately. So 
they lose discretion with this. If there is a violation, they 
have to get the person into custody. If they come in and test 
dirty, they get arrested on the spot. Sheriffs take them into 
custody; they go to jail; we come back 2 days later for a 
hearing, and that has to happen very quickly. Law enforcement 
traditionally gives low priority to warrant service.
    As former U.S. Attorney, we set up a HIDTA. I talked to the 
HIDTA director, then the U.S. marshal. The U.S. marshal agreed 
to serve warrants for my courtroom. HIDTA pays the overtime; 
and then we have got to make sure this happens within 2 days. 
So the hearings typically happen 2 days later.
    On October 1, we had the warning hearing. I told the 
offenders, you are on probation because you are not in prison. 
You are making a deal with me you are going to follow the rules 
of probation. So, from now on, if you use drugs, you go to 
jail. If you miss an appointment, you go to jail. We are trying 
to create a culture of responsibility. So, even if you screw up 
but come in and turn yourself in, I am going to that into 
account in what my sanction is; but if you decide, I am going 
to go to jail anyway, I might as well go party and hang out 
with the boys and wait for law enforcement to get me, I am 
going to give you a bunch of more time.
    Now, we thought we would have a lot of hearings. We started 
with 34 people on October 1 of 2004. We only had three hearings 
the following week, two hearings the week after that. I have 
only had five contested hearings in the last 4\1/2\ years. The 
typical hearing is 7\1/2\-minutes long. That is why we can 
handle a lot of cases, and it is because the offenders admit to 
it. It is something that happened a few days ago, and they know 
they are going to go to jail for some days or maybe some weeks, 
not for years.
    HOPE has grown from 34 offenders 5\1/2\ years ago. We now 
have more than 1,500 in the program, including 1,350 of the 
8,000 felons on Oahu. That is one out of six. The police 
department has stepped up. Now they are serving 90 percent of 
the warrants. We are trying to target those most likely to 
fail.
    As has been described, Dr. Hawken did a randomized control 
trial study: 74 percent fewer arrests, 72 percent less likely 
to test positive for drugs, 61 percent less likely to miss an 
appointment. The biggest numbers are 55 percent less likely to 
get arrested for a new crime, which has led to a 48 percent 
reduction in bed days. Dr. Hawken testified at our house 
finance committee in Hawaii a month ago that that has led to a 
current savings of between $4,000 and $8,000 per HOPE 
probationer.
    So Nevada started their program in January. Oregon started 
their program in March. Arizona, Alaska, Virginia are getting 
organized and are ready to go. This is one of those true, rare 
win-win propositions in law enforcement. Crime victimization is 
cut by more than half. It is good for offenders and their 
families because it keeps them out of prison, and it saves the 
taxpayers millions of dollars. So we are going to start slowly 
with all the States. What this bill could do is get this 
revolution going across the entire country. We could save 
millions of dollars.
    I thank you for inviting me to address you, and I will be 
happy to answer any questions that you have. Thank you.
    [The prepared statement of Judge Alm follows:]
                  Prepared Statement of Steven S. Alm
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you very much. I want to thank all of our 
witnesses for their testimony. We will now ask questions under 
the same 5-minute rule.
    Mr. Gelb, you referred to the one out of a 100 study, which 
also, I believe, had a point in there that any incarceration 
rate over 500 was actually counterproductive.
    Can you explain what that meant?
    Mr. Gelb. Sure. Actually, it was not our study. We cited 
some research in that report that found that when you take so 
many people, particularly males, out of a community, there are 
devastating effects on that community. So there is some 
research that shows that you can have crime control effects in 
particular neighborhoods. Increasing incarceration will produce 
public safety up to a point, but then when you start to reach 
past that point in that neighborhood, you will actually cause--
should I go ahead? Thank you--you actually take some of the 
steam out of that community that it further deteriorates.
    Mr. Scott. Justice Broderick, you indicated you saved $7 to 
$10 million. How did you calculate that?
    Justice Broderick. I am sorry, Mr. Chairman. I couldn't 
hear you.
    Mr. Scott. You indicated that New Hampshire saved $7 to $10 
million. How did you calculate the savings?
    Justice Broderick. Well, the idea is that if we act more 
intelligently than we have, I think, historically, with 
probation and parole, we will keep fewer people coming back to 
prison.
    In my State--and I think it is true around the United 
States--I was speaking to the warden of our women's prison one 
day who had spent her life on probation and parole; and she 
said, ``Judge, you know, one of the problems is that we have 
too many people to watch and too few people watching them, and 
so we incentivize a prompt and quick solution, which, sadly, is 
send them to jail;'' and she said, ``Probation and parole has 
become like police on the side of the highway catching 
speeders. We need to be more thoughtful about it.''
    And so I think, if we focus there--that is the goal--we 
would have better outcomes.
    And then, as the Chair pointed out, the goal would be to 
reinvest the savings because, in my view, without reinvesting 
the savings you haven't done your job, particularly in the area 
of mental illness, which is something I am very interested in, 
and there are more people in our jails and prisons with mental 
illness than there are in mental health facilities across the 
United States. It is a disgrace and, more importantly, it is an 
expensive disgrace.
    Mr. Scott. Thank you.
    Representative Madden, you indicated that the programs that 
you have proposed not only reduce crime but save money. 
Unfortunately, there are those who are interested in reducing 
crime and taking care of people, and there are those who are 
for saving money. There is another little group over here that 
we have to deal with, and that is those who do their research 
by taking a poll, and if you sound tough and something scores 
well, even though it wastes money and increases the crime rate, 
if it scores well in a poll, they will vote for the ``continue 
business as usual'' and not make the ``reduce crime/save 
money'' choice.
    What can we do to change the dynamics so that a bill that 
will reduce crime and save money can actually pass?
    Mr. Madden. That is the nice part, Mr. Chairman, of what we 
actually did in Texas by working on a bipartisan level, and we 
worked it through our appropriations cycle also.
    I will tell you we now have a great deal of believers that 
we have had success because what has happened to our crime rate 
and our prison population is, as Judge Poe has pointed out--or 
asked the question about how many did we have--we had 157,000 
at one time in the prisons of Texas. We are down, as I said, to 
about the 153,950 number, and it looks like our projections 
would indicate that that is going to continue to go lower. That 
is a clear indication to all of our legislative friends that 
what we have done has been successful, and those kinds of 
things are actually working to save us money.
    So how do you go back in and put that out to your people?
    The people are pretty smart out there. You ask them about 
the criminal justice system now, and I will tell you that, 
going into almost any group that I have ever gone into, I have 
asked them specifically: Do they know people that were involved 
or have been involved in criminal justice? And almost without 
fail, many of them will tell you that they were family members 
or somebody they went to school with. And you ask them about 
the type of person they are or were, and you will find out, 
well, some of them were the very bad guys, as we have pointed 
out, that needed to be locked up and the key thrown away. There 
are a lot of those others that have made mistakes; they have 
done stupid things; they have done dumb things.
    And somehow or another, with the types of programs and many 
things that we are doing, can we change their minds? Can we 
change their values? Can we change their hearts? Can we change 
them as a person? And many of them you can't, and that is the 
numbers thing. Texas is big. You know, we did a lot of things 
that were faith-based about numbers because it is not going to 
work every time. It doesn't, and you are going to have to deal 
with those situations like the one that came up in Connecticut 
here a year or so ago with their parole system; but the reality 
is, if the citizens know that what we are doing is, in fact, 
intelligent and a wise utilization of their revenues, you are 
doing three things as a State, okay?
    First of all, you are providing public safety. Second of 
all, you are making wise use of the money; and third, you are 
doing what a Department of Corrections is supposed to do, which 
is correct behavior. If you are doing those things, then you, 
in fact, are doing what you are supposed to be doing.
    Mr. Scott. You indicated a slight reduction in prisons 
before you changed directions. What were the projections?
    Mr. Madden. The projections were 17,000 more people by 
2012, which would put me at about 167,000 to 170,000 people 
that we had in the prison system.
    We have also seen a reduction in the number of people that 
are actually on probation, and we have seen the parole 
revocations drop significantly in the State in the last 2 years 
also with those kinds of things, with the programmatic things 
that we are doing.
    And I think the chief justice talked about the importance 
of mental health. I mean, obviously, working in the mental 
health system, there is lots of things that we can do in 
research and data that specifically makes a difference in the 
mental health fields. We can also do that with alcoholism.
    We have over 5,500 people in the prisons of Texas that are 
there because of multiple DWIs. If you can keep them from going 
back to drinking, which I am not sure you can--you know, in 
fact, I know you can't always do, but there are things that do 
keep some people from--that will make them stop drinking. If 
they do that, how dangerous are they? How afraid of them are 
we?
    We have two types of people, I think, that we ought to look 
at--one that we should be afraid of and the others that we are 
mad at--and that is what our system has, and I have got three 
types of prisoners. I have got prisoners that will always come 
back no matter what we do with them. I have got prisoners in 
the prisons who will probably never come back--the Martha 
Stewarts of the world--and I have got people in the middle that 
depend on what we do that I call the swingers. Make a 
difference in them, and if you can change them, that is when 
the system changes.
    Mr. Scott. Thank you.
    Judge Poe.
    Mr. Poe. I thank all of y'all for being here. I am a great 
believer in trying new methods to get the attention of people 
who violate the law. When I was on the bench, I tried 
everything possible with probationers. In fact, I had people 
ask me to send them to prison rather than me put them on 
probation or ``Poe-bation,'' as they called it; but I had a low 
recidivism rate, and it is because of the philosophy that all 
of y'all are talking about.
    We send people to prison. To me, prison just keeps people 
away from the rest of us. Prison doesn't really correct 
anybody. It just keeps them away from us. Probation sometimes 
hasn't been used as, I think, it obviously can be. It seems, if 
it is used correctly, it can instill a person to have personal 
responsibility for what they are doing, and then there are 
consequence. When they are on probation, if they test positive 
for drugs or they are not working or they are not going to 
school or they are not supporting their family, whatever it is, 
then there is an immediate, an immediate consequence, and they 
are still on probation.
    So I really like that philosophy. I think it has worked in 
the past. I have one concern, though.
    Dr. La Vigne, I don't know why you picked Travis County--
that is Austin--and their logo is ``Keep Austin weird.'' Any 
town that has that, you know, is kind of an anomaly in the 
State of Texas. Anyway, I think the statistics do bear out that 
it creates the results that we want in the criminal justice 
system: instilling personal responsibility, a lower recidivism 
rate, a better cost for the taxpayers, and of course we hold 
people accountable and there are consequences for their 
actions.
    As I mentioned when I started, sentencing must mean 
something. It has got to mean something to the victim, to the 
defendant, and to the public at large. So I commend all of you 
on your work. I do have one concern, though.
    Every sentence is imposed by a judge, and we have got all 
kinds of judges in this country, and that is all I will say 
about that; but I want to ask the two judges--the trial judge 
and appellate judge--and the chief justice: How do we get 
judges to do these things rather than just say--you know, when 
a person comes back in with a violation of probation, they 
don't do anything. Go and send them more. Then we have got the 
others who, when you got one little mistake while you are on 
probation, here comes the gavel and off to the ``do right'' 
hotel with you, you know.
    So how do we get judges to buy into doing this to instill 
personal responsibility for people on probation and have the 
graduated system of probation and consequences? Suggestions?
    Chief Justice, I will ask you, and then Judge Alm will be 
second.
    Justice Broderick. I guess what I would say about my State 
is that, I think, given the numbers we have seen, judges may be 
overzealous on revoking probation, and I think part of the 
problem, Congressman, is that there are few graduated places to 
go. It is either/or sadly. It also helps when you have a State 
which would be the size of a county in Texas and a statewide 
newspaper that watches closely. So I think that helps, too, but 
I think the tragedy in my State, which is a cost driver, is 
that we don't have many options.
    Let me give you a very brief example, if I could, which the 
head of our Department of Corrections laments when he tells it, 
but I think it makes the point.
    He said there was a woman who was on parole from the 
women's prison in New Hampshire. She had found a job, she was 
going to school, and she had two children that she was caring 
for. And one of the conditions of her parole was that she not 
write a letter to the father of the children, who was at the 
time incarcerated in the men's prison in Concord. And she wrote 
a letter, and so they said, You violated a condition of your 
parole. You are going back to prison. The kids went to foster 
care, she lost her job, she lost her chance for education. And 
at the end of the day, every citizen in New Hampshire who drove 
home, if they had known those facts, would not be safer or 
smarter than they had been. There has to be some option.
    It is not a question, I don't think, of being tough on 
crime. I don't think any sensible person would be other than 
that, but I think we have had a deficit in being intelligent on 
crime, and failure is very expensive. We need graduated and 
immediate--I agree with the judge from Hawaii--which we don't 
now have. That would make a huge impact. It is obviously making 
a huge impact in Hawaii.
    Mr. Poe. Judge, your last comment, if it is permissible, 
Mr. Chairman, how do we get judges to buy into this?
    Judge Alm. Well, when we started in Hawaii, it was just in 
my courtroom. We expanded to all 10 judges. Not surprisingly, 
some of my colleagues were not really thrilled about doing this 
philosophically--it took more work--but there was no operator 
effect. The judges did give sanctions, and they got the same 
results I did.
    I think the way the legislation is set up it will help to 
accomplish this. It will set up for 20 pilot sites in a 
competitive bidding process. They are going to have to set up a 
proposal, get people organized and agree to follow the routine 
in order to do that. They have asked me to be of assistance to 
help work with the other judges in doing this, and I will 
absolutely do that.
    We have done that with Nevada so far, with Oregon. I have 
met with those judges. We have talked about it. Some of the 
time it is going to take that kind of face-to-face contact and 
explanation and discussion, but when they see the results we 
are getting--and that is the message. If you hope to get the 
results we are getting, you have got to follow through with it, 
and I think it doesn't hurt if you get a judge who has a 
somewhat tough reputation because then people will know you are 
not kidding around, and when you send people to jail each and 
every time, it isn't the fact of the length of it; it is the 
fact that it happens, and that is what we have found so far.
    Mr. Poe. Thank you, Mr. Chairman. I will yield back.
    Mr. Scott. Thank you.
    Judge Alm, it is swift and certain and not length; is that 
right? The deterrent effect is if it happens swiftly and 
certainly?
    Judge Alm. Absolutely.
    Mr. Scott. What is the additional cost of intensive 
probation as opposed to regular haphazard probation?
    Judge Alm. Regular probation costs about $1,000 per person 
per year. HOPE adds another $1,000--so it is a total of about 
$2,000--and we use most of that for drug treatment dollars. We 
have been getting $1.2 million from our legislature for the 
last 5 years. We use $770,000 for drug treatment dollars.
    Mr. Scott. And have you calculated the reduction in the 
recidivism and how much you save in a $15,000-, $20,000-, 
$30,000-a-year incarceration as opposed to the $1,000 extra 
probation?
    Judge Alm. Well, as Dr. Hawken says, we have between $4,000 
and $8,000 per, and we now have 1,350 felons in this. So, as we 
keep expanding this--and our legislature has passed a 
resolution to have our paroling authority set up a HOPE parole 
project. We volunteered to help them do that. I want to get 
pretrial done as well. If we get the whole system going, I am 
convinced we can reduce our prison population by a third.
    Mr. Scott. And one of the things about investing in 
prevention is that no one has any upfront money, and if you can 
figure out a way to get the thing jump-started and calculate 
the savings and reinvest the savings, you can keep the program 
going.
    Dr. La Vigne, how accurate can you ascertain who saved the 
money? In other words, if you are going after some savings, we 
know that Corrections is going to save some money and that 
other agencies will save money, and the idea is to recapture 
some of this money.
    In Pennsylvania, they calculated--they saved over five 
times more than they actually spent. They spent in 
comprehensive programs about $60 million. They looked back, and 
they had saved $300 million--about 5-1. So, if we can get 
whoever is saving the money to kick back in 20 to 30 percent, 
not all of what they saved but 20 or 30 percent of what they 
saved, most of these programs can continue on the reinvested 
savings, but they didn't have the money to begin with, so 
nothing ever starts.
    Ms. La Vigne. Right.
    Mr. Scott. The question is: How accurate can you allocate 
the savings so you know who ought to be anteing up some 
reinvestment?
    Ms. La Vigne. Right. I think that depends a lot on the 
nature of the intervention, what you are doing to achieve those 
savings.
    So, in the case of Texas, they deliberately decided not to 
build more prisons. They had the plans in the works, as I 
understand it, so they knew how much that would cost and the 
savings that came from that.
    The same goes with the county level. A lot of counties now, 
because of jail overcrowding, are looking at the only option 
open to them, which is to expand their existing jails or to 
build new jails, so they can identify savings there.
    But I also think that Judge Alm has a good example there in 
terms of the fact that we know that a certain share of these 
people would end up behind bars, be it jail or prison; and 
through the work of Dr. Hawken, I think we can easily identify 
the savings associated with that. I don't know if she has done 
that kind of rigorous analysis, but it is possible. We do a lot 
of that kind of cost-benefit work at the Urban Institute. So 
then the question is:
    Who saves the money, right? And then how do we know--do we 
dip into those coffers and say, ``Okay. Well, you would have 
spent this much this year so it needs to go somewhere else''? 
And I think those are issues we are still struggling with on 
justice reinvestment.
    Mr. Scott. I think Representative Madden would show if you 
have a line item for that budget and their expenses just went 
down----
    Ms. La Vigne. Well, that is an easy one.
    Mr. Scott. You save $17,000 with fewer prisoners? How much 
does Texas spend per prisoner?
    Mr. Madden. It was $17,000. Right now, we spend somewhere 
between $42 and $45 per day per prisoner. That is about 
$16,500--it depends on whose numbers you take. It is about 
$16,500 per prisoner per year. So, if you reduce the prison, 
now, you know, those are nice figures to throw out. We know, 
for example, if you have one prisoner less, you don't save just 
that number; it is something less than that. But if you add 
them all together in bigger numbers, then those numbers really 
do work.
    Mr. Scott. But, if you are talking $17,000, it is not just 
one extra, which you could absorb, but you are talking about 
building new prisons.
    Mr. Madden. I had the estimate of seven to eight 
significant units that we would have to build. The building 
cost on those were estimated by our legislative budget people 
at somewhere between $250 and $300 million each.
    Mr. Scott. Before you started operating them?
    Mr. Madden. Before you started operating.
    The budget had in it that year about $540 million to build 
three of those new prisons. It was sort of the perfect storm 
that I ran into because, when we did all our estimates and 
looked at all our programs and looked at the number of beds we 
needed and everything else, it came out to be significantly 
less cost than that would have been, but it was a cost. It is 
there now.
    I will tell you I am working on the American Legislative 
Exchange Conference, and we are looking at some model 
legislation, and when you look to get the initial cost savings 
that you might be able to get first, it would be some places in 
the probation programs that you could specifically show 
reductions in cost.
    Mr. Scott. Another thing to do would be to enact programs 
like the two bills that are pending now to jump-start so that 
you can start saving the money----
    Mr. Madden. Absolutely.
    Mr. Scott [continuing]. So that you don't have to come up 
with it out of a budget that is already too tight. You jump-
start it, but get people around the table to say, Look, as you 
save money, you are going to have to reinvest it, that is what 
keeps the programs going.
    Mr. Madden. If you have things like specific courts, like 
Judge Alm was talking about, if you do things for a mental 
health court or if you do things for a veterans court or if you 
do things for, you know, specific courts like Judge Alm has in 
HOPE court, with starting those, you can very quickly see some 
of those result in dollars saved.
    To both the counties--because you have got to look at the 
system that your State has set up. If it is the county that is 
spending the money--because there are places that the county is 
actually spending funds. There are places where the State is 
actually spending funds. There are losses in money going to 
victims of crime, for example, by someone who is incarcerated 
to someone who is not.
    There are lots of things that you can do to calculate that, 
and it is nice to have the people who can do those kinds of 
calculations. The Council of State Governments has some 
wonderful people that can do some of those things. There are 
other great groups out there. The State of Washington has a 
great statistical group, their public policy statistical 
people, that have wonderful results for programs that are good 
information. So it is out there right now for the Washington 
State people.
    Mr. Scott. Now, do you hear from your local sheriffs, who 
suggest that one of the ways you get people out of prisons is 
to have short-term jail stays so that the jailed population 
might actually go up a little bit while the State population 
goes down significantly--an overall savings--but that you may 
end up with your sheriffs mad because you may have increased 
the jail population?
    Mr. Madden. We have those problems like we always have. You 
know, I will say, if the Federal Government says something to 
the States, they may save the Federal Government money and cost 
the States. There are things we do at the State that may cost 
the State; to save the State money, it will cost the locals. We 
have got to weigh that.
    Mr. Scott. Dr. La Vigne, have you dealt with that 
phenomenon?
    Ms. La Vigne. Not to date, but we have talked about it a 
lot. It is a big issue for the counties and for the States; and 
I really think Adam could speak to this quite well with some of 
the work they have been doing at Pew.
    Mr. Scott. Well, if you have everybody around the table and 
there is going to be an overall cost savings and if someone 
else at the table will have a little budget increase, then the 
people around the table ought to be able to figure that out--
where the table saves money, but you don't punish one person 
over at one end of the table.
    Ms. La Vigne. Right. You are asking for a lot of 
coordination.
    Mr. Scott. Well, that is kind of what you need to do.
    I mean you have got things like zero tolerance in a school 
system where you kick a kid out of school. You may have solved 
things in this little silo, but the Corrections Department is 
going to see the kid a little bit and overall it is just not an 
intelligent, smart-on-crime policy. So that is one of the 
reasons you need everybody around the table, looking at a 
policy, so you are doing something that makes sense.
    Mr. Gelb, did you want to comment?
    Mr. Gelb. Sure. Two quick points.
    One, it is not necessarily clear that this is going to 
increase costs on local jails. It depends what current practice 
is. It is a similar program that ran in Georgia. Judge Alm, I 
think, can fill us in on some details of how this actually 
worked in Hawaii, but in Georgia, in some jurisdictions that 
tried a similar type of program, what they were doing is what 
Judge Alm described, which is waiting until violations 
accumulated and then setting somebody in prison until the next 
violation of probation hearing, which, on average was from 
about 28 days to up around 60 days. So they were burning up a 
lot of beds with violators as it was by just waiting and 
delaying and having that uncertainty and, certainly, a lack of 
swiftness. So, in moving to this other system, they reduced, 
you know, their bed use days at the jail level by about three-
quarters by going to shorter sanctions and intermediate 
sanctions.
    The other thing I wanted to point out is that what you are 
hitting on is a really critical issue that highlights the 
Federal role here, which is the difference between the economic 
situation in 2007, when Texas moved, and what we have today, 
right? In Texas, that line was going up. They had a proposal 
from the Texas Department of Corrections and the TDCJ to spend, 
I believe, something like $904 million, and so they were able 
to spend $240 million on something else. So they had a savings, 
or a cost aversion. Those are not the way those lines are going 
now--the budget lines anyway, right? People are cutting back.
    That is the point you were getting at, I think, with that 
jump-start money. You know, you have got to wonder here. 
Everybody is saying, Well, this is a great win-win, and it can 
save all this money. Then why is anybody here before Congress 
saying that there is a Federal role and a need to contribute?
    And that is precisely on this point, which is that you do 
not have and States do not have the dollars right now to put a 
day reporting center into place, to put a reentry program up, 
to put a drug court or a HOPE program into place in order to 
start achieving those savings, because, as Judge Broderick 
said, you want a viable option here. You just don't want to put 
somebody on probation with 100 other people on the caseload if 
there is not going to be that swiftness and certainty and that 
accountability. So that is where I think the Federal comes in.
    Judge Alm. Chairman Scott, Dr. Hawken did look at that. The 
jail bed-days were neutral. They were a wash. Even though the 
guys from HOPE were getting sent every time, it is because the 
guys in the control group were getting their probation revoked 
50 percent more. They were sitting 10 weeks until the hearing, 
and the judge often put them back on probation for another 5 
years, and would give them 6 months or a year in jail as a 
condition of probation. So the actual jail bed-days were 
neutral. The savings was all in prison, years in prison.
    And following up on Adam's points with that, HOPE got $1.2 
million from our legislature in 2006, and we have been getting 
it every year since. I am just glad the idea came to me back 
then because if I went to them this year with it, we probably 
wouldn't have gotten the money. They have approved it, so they 
have kept funding it.
    Mr. Scott. One of the ways you reduce the number of people 
in jail is by pretrial release. What are the public safety 
implications on pretrial release?
    Judge Alm. I am convinced we can do the same thing by 
putting these folks on a hotline, by watching them closely. We 
can do that on pretrial release. We have some guys who just 
can't get out because they can't make any sort of bail, and as 
long as they are not using drugs, for a lot of them, I think we 
can safely supervise them on pretrial release. We have been 
talking to our public safety people, and we are trying to get 
them started on that. Again, change is hard.
    Mr. Scott. One final question, Dr. La Vigne.
    Can you give us some order of magnitude about how much it 
costs to get this data?
    I know one thing that would be nice to have are the zip 
codes from which all the State prisoners come. Then you know 
where to put your more intensive programs.
    The data that you need to develop an intelligent plan, what 
kind of order of magnitude are we talking about?
    Ms. La Vigne. I don't know if I can put a specific dollar 
amount to it, but suffice it to say it costs more than we ever 
thought it would. We selected our three counties because of the 
wealth of data that they had to work with, and yet we have 
continued to work with them to clean the data and organize it 
and analyze it in a way that can help them make sound data-
driven decisions.
    States are in the same situation. Some States do keep good 
geographic data on zip codes and even on exact street 
addresses, but others do not, and you really can't do this kind 
of justice reinvestment work if you are not working with 
empirical evidence to help guide decision-making.
    What we found, too, is that, with the economic situation in 
both States and counties, the research staff, if they did 
exist--and in some places, they don't even have someone who is 
called a ``researcher''--has been shrinking. So, whereas we are 
coming in and trying to aid people and analyzing the data, our 
role is to help them have the tools to do it over time because, 
if we just swoop in and analyze things and leave, they are not 
going to have the ability to track the impact of their changes 
and to continually look and sustain their justice reinvestment 
efforts, and so we really need to support these States and 
these localities in giving them the staffing and resources to 
do this kind of work.
    Mr. Scott. Thank you.
    Judge Poe.
    Mr. Poe. Just one comment about costs.
    In all of the research about savings and costs, when you 
have a probationer under this philosophy--he goes to jail for 2 
or 3 days and then may in a month go again for 2 or 3 days or 
whatever--in theory, they should still be able to keep their 
jobs; they should still be able to make their restitution to 
the victim; they still should be able to pay their court costs 
and their fines, alimony or whatever else they are out to pay. 
You put them in prison, then all of that stops.
    Is there any data--a number--that I could understand about 
that factor of the costs?
    Ms. La Vigne. Well, there is plenty of evidence to suggest 
that it is more cost beneficial to keep people in the community 
versus to incarcerate them. Giving you a specific dollar 
figure, I can't do.
    Mr. Poe. Mr. Gelb, in all your stats there----
    Mr. Gelb. I have been looking for it.
    Jake, what page number are we on here?
    We have some figures in here. Goodness, I will find them 
very, very quickly. I think, from Colorado, about just the 
difference in what gets paid by probationers--let's see. One 
second. All right, I am not coming up with it.
    Mr. Poe. Can you furnish that to the Committee?
    Mr. Gelb. Oh, we sure can. There was a report that was 
distributed, sorry I can't put my hand on the page right now, 
but you are absolutely right.
    Representative Madden, I am not sure if you are familiar 
with the Texas numbers that the Texas Public Policy Foundation 
just put out, but we can give you some Texas numbers as well.*
---------------------------------------------------------------------------
    *See page 2 of the prepared statement of the Honorable Jerry Madden 
printed on page 57 of this hearing.
---------------------------------------------------------------------------
    You are right. If you put somebody in prison, the victim 
restitution stops. The child support payments stop. The other 
stuff stops. You know, a lot of folks are going to think that 
this population is not able to pay supervision fees or to pay 
these other fines and fees, but they are tremendous. They are 
tremendous.
    Thanks, Richard.
    So, just looking here at the numbers from Colorado:
    Additionally, offenders ineligible for probation but 
diverted from prison to residential community corrections beds 
paid $11.75 million toward their own housing, meals and 
treatment, nearly $900,000 in child support, over $1.2 million 
in State taxes, and over $3 million in Federal taxes in fiscal 
year 2007.
    Mr. Poe. Can you furnish that to me in writing or to the 
Chairman? I can't remember those numbers.
    That is all I have, Mr. Chairman. Thank you.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Scott. Thank you.
    I would like to thank our witnesses for their testimony 
today.
    Members may have additional written questions, which we 
will forward to you and ask you to answer as promptly as 
possible so that the answers can be made part of the record. 
The hearing record will remain open for 1 week for the 
submission of additional materials.
    I would ask unanimous consent to enter into the record 
articles describing the initiatives in North Carolina--the 
justice reinvestment in North Carolina where they are reducing 
spending on corrections and reinvesting and strategies to 
increase public safety.
    Also, the Governor of Virginia today issued Executive Order 
11--a very aggressive second chance operation to reduce the 
number of people coming back. That Executive order and 
statement from the Governor's office will be made part of the 
record.
    Without objection.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
    Mr. Scott. Is there anything further to come before the 
Committee?
    Without objection, the Subcommittee stands adjourned.
    [Whereupon, at 5:40 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                                 <all>

</pre></body></html>
